Nos. 19-431, 19-454

In the Supreme Court of the United States
_____________

LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL
HOME, Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA, et al.,
Respondents.
_____________
DONALD J. TRUMP, Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA, et al.,
Respondents.
_____________
On Writs of Certiorari to the
U.S. Court of Appeals for the Third Circuit
_____________
BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS
_____________
Richard A. Samp
(Counsel of Record)
Mark S. Chenoweth
John J. Vecchione
NEW CIVIL LIBERTIES ALLIANCE
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210
rich.samp@ncla.onmicrosoft.com
Counsel for Amicus Curiae

QUESTION PRESENTED
Amicus curiae addresses the following question only:
Whether the Affordable Care Act, 42 U.S.C.
§ 18001 et seq., and the Religious Freedom Restoration Act of 1993, 42 U.S.C. § 2000bb et seq., authorized
federal agencies to expand the conscience exemption
to the “Contraceptive Mandate.”

ii
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
TABLE OF AUTHORITIES ...................................... iv
INTERESTS OF AMICUS CURIAE.......................... 1
STATEMENT OF THE CASE ................................... 2
SUMMARY OF ARGUMENT .................................... 5
ARGUMENT ............................................................... 8
I.

II.

INTERPRETING THE ACA TO LIMIT AGENCIES’
AUTHORITY TO EXPAND RELIEF FROM THE
CONTRACEPTIVE MANDATE IS IN DEROGATION OF THE CONSTITUTION’S VESTING OF
ALL LEGISLATIVE POWERS IN CONGRESS ............ 8
A.

The ACA Includes No Intelligible
Principle to Guide the Agencies in
Determining What “Additional Preventive Care” They Should Mandate ...... 9

B.

By Vesting “All Legislative Powers”
in Congress, the Constitution Ensures that the Same Entity that Imposes a Constraint May also Relax It,
but a Bar on Administrative Relief
Would Defeat that Key Protection ........ 15

C.

When Agencies Undertake Lawmaking Functions that Were Vested in
Congress, Rules that Reduce the
Scope of Regulatory Reach Raise
Fewer Self-Governance Concerns ......... 18

INTERPRETING THE ACA TO LIMIT AGENCIES’
AUTHORITY TO EXPAND RELIEF FROM THE
CONTRACEPTIVE MANDATE UNDERMINES
THE CONSTITUTION’S AND RFRA’S PROTECTIONS FOR RELIGIOUS AMERICANS ..................... 20

iii
A. The Constitution Secures the Religious
Liberty of Americans Both Through the
First Amendment and by Vesting “All
Legislative Powers” in Congress................. 20
B. Congress Adopted RFRA in Part to
Counteract the Tendency of Unelected
Courts and Administrative Agencies to
Devalue Free-Exercise Interests ................ 24
CONCLUSION ......................................................... 27

iv
TABLE OF AUTHORITIES
CASES
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014) ................................... 3, 26, 27
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520 (1993) .............................. 20
Employment Division v. Smith,
494 U.S. 872 (1990) ....................... 7, 20, 21, 24, 25
Gonzales v. O Centro Espirita Beneficente Uniao
do Vegetal, 546 U.S. 418, 434 (2006) .................. 14
Gundy v. United States,
139 S. Ct. 2116 (2019) ................. 11, 12, 13, 15, 16
Miller v. Mayor of New York),
109 U.S. 385 (1883) ............................................. 12
Panama Refining Co. v. Ryan,
293 U.S. 388, 430 (1935) ..................................... 12
Pennsylvania v. Trump,
888 F.3d 52 (3d Cir. 2018)........................... passim
Wayman v. Southard,
23 U.S. (10 Wheat.) 1 (1825) ............................... 11
Zubik v. Burwell,
136 S. Ct. 1557 (2016) ............................... 3, 18, 26
CONSTITUTIONAL PROVISIONS
U.S. Const. art. I, § 1 .......................... 9, 11, 15, 19, 24
U.S. Const. amend. I (Free Exercise Clause) .. passim
STATUTES
Administrative Procedure Act (ACA),
5 U.S.C. § 706(2)(A), (C) ....................................... 4
26 U.S.C. § 4980H..................................................... 14

v
Affordable Care Act (ACA), Pub.L. 111-148
(2010) ................................................................. 2, 9
42 U.S.C. § 300gg-13(a) .................................. 9, 16
42 U.S.C. § 300gg-13(a)(1)-(3) .............................. 9
42 U.S.C. § 300gg-13(a)(4) ......................... passim
Religious Freedom Restoration Act of 1993,
42 U.S.C. § 2000bb et seq. .................................... 5
42 U.S.C. § 2000bb-1(a) .................................. 5, 25
42 U.S.C. § 2000bb-1(b) ....................................... 25
42 U.S.C. § 2000bb(a)(2) ..................................... 24
RULES AND REGULATIONS
45 C.F.R. § 147.132 ..................................................... 4
77 Fed. Reg. 8,725 (Feb. 12, 2012) ............................. 3
83 Fed. Reg. 57,536 (Nov. 15, 2018) ..................... 4, 11
OTHER AUTHORITIES
The Federalist No. 62, p. 378 (C. Rossiter ed.
1961) (J. Madison) ............................................... 15
Philip Hamburger, Exclusion and Equality: How
Exclusion from the Political Process Renders
Religious Liberty Unequal, 90 Notre Dame L.
Rev. 1919 (2015) .................................................. 22
Gary Lawson, Delegation and the Original
Meaning, 88 Va. L. Rev. 327 (2002) .................... 12
John Locke, The Second Treatise of Civil Government and Letter Concerning Toleration
(1947) ................................................................... 11

INTERESTS OF AMICUS CURIAE
The New Civil Liberties Alliance (NCLA) is a
nonprofit, non-partisan civil-rights organization devoted to defending constitutional freedoms from violations by the administrative state.1 The “civil liberties” of the organization’s name include rights at least
as old as the U.S. Constitution itself, such as jury
trial, due process of law, the right to be tried in front
of an impartial and independent judge, and the right
to live under laws made by the nation’s elected lawmakers through constitutionally prescribed channels
(i.e., the right to self-government). Yet these selfsame
rights are also very contemporary—and in dire need
of renewed vindication—precisely because Congress,
administrative agencies, the States, and even sometimes the courts have neglected them for so long.
NCLA aims to defend civil liberties—primarily
by asserting constitutional constraints on the administrative state. Although Americans still enjoy the
shell of their Republic, there has developed within it
a very different sort of government—a type, in fact,
that the Constitution was designed to prevent. This
unconstitutional administrative state within the Constitution’s United States is the focus of NCLA’s concern. NCLA is particularly disturbed that the decision below concluded that federal agencies are not empowered to expand religious exemptions from the
Pursuant to Supreme Court Rule 37.6, NCLA states that no
counsel for a party authored this brief in whole or in part; and
that no person or entity, other than NCLA and its counsel, made
a monetary contribution intended to fund the preparation and
submission of this brief. All parties have consented to the filing.

1

2
Contraceptive Mandate even after this Court held it
to violate the Religious Freedom Restoration Act
(RFRA), and even though those agencies were purportedly authorized to impose the mandate.
In adopting the Affordable Care Act (ACA),
Pub. L. 111-148 (2010), Congress improperly delegated to the administrative state the power to write
laws governing the conduct of health insurance providers. Administrative agencies responded to that
delegation by adopting a contraceptive-coverage requirement Congress itself never enacted. Later concluding that the requirement substantially burdened
the exercise of religion by some employers, those
agencies expanded a religious exemption from the requirement. While the agencies lack constitutional authority to exercise legislative power vested in Congress, NCLA urges reversal on the theory that administrative relief is at least as constitutionally appropriate as administrative constraint; they travel together.
NCLA is also concerned that administrative
agencies—because they focus their attention on a narrow range of delegated tasks and are not directly answerable to voters—are far more likely than Congress
itself to systematically undervalue the constitutionally protected religious liberties of Americans. NCLA
asks the Court to correct for that undervaluation
when it addresses administrative-law issues.
STATEMENT OF THE CASE
The ACA broadly delegates to the Executive
Branch authority to determine health insurance coverage that must be offered by group health plans and

3
health-insurance issuers. In particular, the ACA authorizes the Health Resources and Services Administration (HRSA), an agency of the U.S. Department
of Health and Human Services (HHS), to specify coverage requirements, “with respect to women, such additional preventive care and screenings … as provided
for in comprehensive guidelines supported by” HRSA.
42 U.S.C. § 300gg-13(a)(4).
Acting under that delegated authority, HRSA
issued guidelines in 2011 that included within the required coverage all Food and Drug Administration approved contraceptive methods (the “Contraceptive
Mandate”). HHS, in conjunction with the Departments of Labor and Treasury (collectively, “HHS”),
simultaneously issued a rule directing HRSA to recognize an exemption from the Contraceptive Mandate
for a narrow subset of religious employers.2
Other employers subject to the mandate objected to their exclusion from the exemption, asserting that the mandate imposed unwarranted burdens
on the exercise of their religious beliefs. In response
to those concerns and to the Court’s decision in Zubik
v. Burwell, 136 S. Ct. 1557 (2016), HHS broadened exemptions from the Contraceptive Mandate to “ensure
that proper respect is afforded to sincerely held religious objections in rules governing this area of health
HHS issued the exemption as an interim final rule (IFR) on
August 3, 2011. The following year, it issued the exemption in
final form “without change.” 77 Fed. Reg. 8,725 (Feb. 12, 2012).
In response to federal-court challenges to the Contraceptive
Mandate and this Court’s decision in Burwell v. Hobby Lobby
Stores, Inc., 573 U.S. 682 (2014), HHS issued final regulations
modifying the scope of the exemption in 2013 and again in 2015.

2

4
insurance and coverage, with minimal impact on
HRSA’s decision otherwise to require contraceptive
coverage.” 83 Fed. Reg. 57,536, 57,537 (Nov. 15,
2018). After providing an opportunity for notice and
comment, HHS issued final regulations expanding
the religious exemption (the “Final Rule”), to take effect in January 2019. See 45 C.F.R. § 147.132.
Pennsylvania and New Jersey filed a federalcourt challenge to the Final Rule, asserting inter alia
that it violated the ACA by failing to mandate coverage of the “additional preventive care” specified by
§ 300gg-13(a)(4).
The district court agreed and
granted a nationwide preliminary injunction against
the Final Rule on the day it was to take effect. Pet.
App. 126a-137a.3
The Third Circuit affirmed. Pet. App. 1a-52a.
It held that the ACA authorizes neither the Final
Rule nor a related rule granting an exemption to employers with “moral” objections to the Contraceptive
Mandate, and “[t]hus, they were enacted ‘in excess of
statutory jurisdiction, authority or limitations, or
short of statutory right,’ making them ‘arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law.’” Id. at 38a (quoting 5 U.S.C.
§ 706(2)(A), (C)).
The appeals court held that the statutory authority to issue “comprehensive guidelines” (set out in
42 U.S.C. § 300gg-13(a)(4)) “concerns the type of services that are to be provided and does not provide authority to undermine Congress’s directive concerning
3

“Pet. App.” refers to the Petition Appendix in No. 19-431.

5
who must provide coverage for these services.” Id. at
39a. It held that by using the word “comprehensive”
to describe the mandated guidelines, the ACA indicated that the guidelines should cover “health care
services … for the identified group[ ]” [i.e., women]
without exempting specified employers from the mandate. Id. at 41a-42a.
The court also held that RFRA neither required
nor permitted the Final Rule’s expanded exemption
for religious objectors. Pet. App. 43a-48a. Although
RFRA imposes strict limits on the federal government’s authority to “substantially burden a person’s
exercise of religion,” 42 U.S.C. § 2000bb-1(a), the
court held that the “Accommodation” mechanism
adopted by HHS in its 2013 and 2015 final rules eliminated any substantial burden on an employer’s exercise of religion. Id. at 46a.
SUMMARY OF ARGUMENT
Adoption of the Contraceptive Mandate—
based on the authority delegated to HHS by 42 U.S.C.
§ 300gg-13(a)(4)—raises serious constitutional concerns. The statute does not set forth any congressional policy regarding what “additional” goods and
services group health plans should be required to
cover. It does not even supply an “intelligible principle” to guide HHS in its lawmaking effort. Instead,
§ 300gg-13(a)(4) simply states that the mandatorycoverage list is to be supplemented by including, “with
respect to women, such additional preventive care
and screenings” as are included in “comprehensive

6
guidelines” to be issued by HHS (through its subordinate agency, HRSA). Any such delegation of legislative power to an administrative agency—especially
without an intelligible principle—is in derogation of
the freedom of Americans to protect their religious interests via Congress.
No party to these proceedings has raised a
“nondelegation doctrine” challenge to § 300gg-13(a)(4)
or to the implementing regulations issued by HHS between 2011 and 2018. NCLA nonetheless urges the
Court to examine these cases through the lens of that
constitutional doctrine and, more substantively,
through the words of the Constitution, which speaks
not of delegation but of “vest[ing].” The Constitution
vests all legislative powers in Congress, thereby barring Congress from divesting itself of such powers.
When, as here, a statute divests legislative authority to an administrative agency and fails to articulate constraints on that authority, the agency should
never be faulted for deciding to reduce the scope of its
regulatory reach. Applying that doctrine here means
upholding the Final Rule, which expands the existing
religious exemption and thereby decreases the Contraceptive Mandate’s impact on the regulated community. Interpreting the ACA instead to bar HHS and
other federal agencies from providing relief from their
own rules deprives Americans of a key benefit of vesting legislative powers exclusively in Congress.
Reviewing courts have only one alternative:
seek to discern in the ACA a clear directive regarding
whether to adopt a Contraceptive Mandate and

7
whether exemptions from the mandate are authorized. The Third Circuit attempted that approach but
failed badly. While individual Members of Congress
may have supported adoption of a Contraceptive
Mandate when they voted for the ACA, nothing in the
language or structure of the statute indicates whether
that was the view of a congressional majority. And
while the Third Circuit faulted HHS for expanding
the religious exemption, it never explained why that
expansion violated the ACA if, as the court conceded,
HHS was statutorily authorized to create more limited religious exemptions in 2011 and 2013.
Statutes should not be interpreted in derogation of the Constitution. Where a statute evidently
contradicts the Constitution, it should be held unlawful and void. But where a statute is genuinely ambiguous, in a way that cannot be resolved by conventional techniques of constitutional interpretation, it
should be interpreted consistently with the Constitution rather than in derogation of it.
Reversal of the decision below will also provide
needed protection for rights guaranteed by the First
Amendment’s Free Exercise Clause. As the Court has
recognized, Congress’s institutional structure may
render it receptive to concerns regarding the free exercise of religion. See Employment Division v. Smith,
494 U.S. 872, 890 (1990) (noting that legislatures are
sometimes persuaded by constituents to adopt freeexercise protections). But administrative agencies do
not operate under the same political constraints as
legislatures. Their proceedings are rarely accessible

8
to citizens who oppose adoption of rules that, although neutral on their face, impose substantial freeexercise burdens.
Moreover, federal administrators tend to focus
on accomplishing what they view as their narrow statutory mission in the most rational and efficient manner, and they rarely view accommodating the interests of religious minorities as part of that mission.
Congress sought to counteract courts’ and administrators’ tendency to ignore religious concerns by
adopting RFRA. But both Respondents and the Third
Circuit argue that RFRA does not permit HHS to
adopt any religious accommodation that is not absolutely required by the statute. That argument is not
a plausible interpretation of RFRA, which Congress
adopted in response to Smith’s invitation to the political branches to address the concerns of religious minorities. Granting agencies leeway, as here, to adopt
measures encouraged (whether or not required) by
RFRA will ensure that agencies will not shy away
from providing the sorts of religious accommodations
that they are predisposed to ignore.
ARGUMENT
I.

INTERPRETING THE ACA TO LIMIT AGENCIES’
AUTHORITY TO EXPAND RELIEF FROM THE
CONTRACEPTIVE MANDATE IS IN DEROGATION
OF THE CONSTITUTION’S VESTING OF ALL
LEGISLATIVE POWERS IN CONGRESS

The ACA is silent regarding what (if any) specific “additional preventive care” should be mandated

9
in the guidelines the statute directed HHS/HRSA to
issue. That delegation of legislative authority to a
federal agency runs headlong into the Constitution’s
promise that only the people’s elected representatives
may adopt new federal laws restricting individual liberty. See U.S. Const., Art I, § 1 (“All legislative Powers herein granted shall be vested in a Congress of the
United States.”) (emphasis added). Even though no
party to these proceedings has raised this nondelegation issue, it should inform the Court’s resolution of
the case. When asked to choose between two agency
actions, both of which are arguably unconstitutional
exercises of legislative authority, courts should uphold the action that imposes the least restraint on individual liberty. In this instance, that means upholding the Final Rule, which expands existing religious
exemptions and thereby decreases the Contraceptive
Mandate’s impact on the regulated community.
A. The ACA Includes No Intelligible Principle to Guide the Agencies in Determining What “Additional Preventive
Care” They Should Mandate
Section 1001(5) of the ACA requires many
group health plans and health-insurance issuers to
provide coverage for specified preventive health services without “impos[ing] any cost sharing requirements.” 42 U.S.C. § 300gg-13(a).4 The ACA also directed HRSA to prepare “comprehensive guidelines”
Required services include: (1) evidence-based items or services
that have in effect a rating of “A” or “B” in the current recommendations of the United States Preventive Services Task Force;
(2) immunizations that have in effect a recommendation from
4

10
listing “with respect to women, additional preventive
care and screenings” that group health plans and
health insurance insurers would be required to cover
without any cost-sharing requirements. 42 U.S.C.
§ 300gg-13(a)(4).
Acting under that delegated legislative authority, HHS/HRSA in 2011 issued guidelines (posted on
HRSA’s website, without advance opportunity for
comment) specifying additional required insurance
coverage, including mandated coverage for all FDAapproved contraceptive methods. HHS simultaneously issued a rule directing HRSA to recognize an exemption from the Contraceptive Mandate for a narrow subset of religious employers. The Final Rule, issued in 2018, left the Contraceptive Mandate in place
but somewhat expanded the religious exemption.
None of the administrative determinations made between 2011 and 2018 was based on any congressionally enacted policy directing adoption of a Contraceptive Mandate. HHS/HRSA acted based on its independent determination that a Contraceptive Mandate
represented sound public policy. Indeed, the Final

the Advisory Committee on Immunization Practices of the Centers for Disease Control and Prevention with respect to the individual involved; and (3) with respect to infants, children, and adolescents, evidence-informed preventive care and screenings
supported by the Health Resources and Services Administration.
42 U.S.C. § 300gg-13(a)(1)–(3). These specified services were all
readily identifiable at the time of enactment; e.g., the referenced
HRSA guidelines covering infants, children, and adolescents
were issued before enactment of the ACA.

11
Rule expressly stated that HHS adopted the Contraceptive Mandate in 2011 as an exercise of “discretion.”
83 Fed. Reg. at 57,539.
Congress’s grant of unbridled authority to
HHS/HRSA to mandate coverage of “additional preventive care and screenings” raises serious constitutional concerns under the nondelegation doctrine.
This Court has held repeatedly that Article I’s grant
of “[a]ll legislative Powers” to Congress means that
Congress may not transfer to others “powers which
are strictly and exclusively legislative.” Wayman v.
Southard, 23 U.S. (10 Wheat.) 1, 42-43 (1825). Writing for the Court, Chief Justice John Marshall explained that while Congress may delegate to another
branch of government the task of “fill[ing] up the details” of legislation, Congress itself must perform the
task of announcing overriding general policies. Id. at
31, 43.5
As Justice Gorsuch has explained:
If Congress could pass off its legislative
power to the executive branch, the
“[v]esting [c]lauses, and indeed the entire structure of the Constitution,” would
“make no sense.” Without the involvement of representatives from across the
John Locke—whose views on separation of powers were highly
influential among the Founding Generation—wrote, “The legislative cannot transfer the power of making laws to any other
hands; for it being but a delegated power from the people, they
who have it cannot pass it over to others.” John Locke, The Second Treatise of Civil Government and Letter Concerning Toleration § 141, p. 71 (1947).

5

12
country or the demands of bicameralism
and presentment, legislation would risk
becoming nothing more than the will of
the current President.
Gundy v. United States, 139 S. Ct. 2116, 2134-35
(2019) (Gorsuch, J., dissenting) (quoting Gary Lawson, Delegation and the Original Meaning, 88 Va. L.
Rev. 327, 340 (2002)).
The Court has upheld congressional delegation
of fact-finding responsibilities, so long as Congress
makes clear in advance the policy determinations
that will flow from specific factual findings. See, e.g.,
Miller v. Mayor of New York, 109 U.S. 385, 393 (1883)
(upholding legislation making construction of the
Brooklyn Bridge dependent on a finding by the Secretary of War that the bridge would not interfere with
East River navigation). But where, as here, Congress
has delegated to others authority to adopt binding
laws without articulating any policies to guide the
exercise of that authority—nor even establishing an
intelligible principle underlying its delegation—the
Court has struck down the delegation as a violation of
Article I, § 1 of the Constitution. See, e.g., Panama
Refining Co. v. Ryan, 293 U.S. 388, 430 (1935).
The Third Circuit sought to read into the ACA
the requisite intelligible principle; it held that the Final Rule violated 42 U.S.C. § 300gg-13(a)(4) by expanding the religious exemption and thereby reducing the scope of the Contraceptive Mandate. Pet. App.
39a-43a. Noting that the ACA directs HRSA to adopt
“comprehensive guidelines,” the court interpreted the

13
word “comprehensive” as a prohibition against exempting any employers from covering “additional preventive care or services” included within the guidelines.
The appeals court’s interpretation is misguided. The word “comprehensive” implies a broad
scope, not all-encompassing coverage. The Third Circuit does not suggest that Congress required HRSA to
include within the guidelines every type of preventive
care. And there is no greater reason to conclude—
based on the word “comprehensive”—that Congress
intended any preventive care included in the guidelines to be applicable to 100% of employers.6

In a case challenging the constitutionality of Congress’s delegation of legislative authority to the Attorney General, Justice
Gorsuch rejected a similar effort to attach great significance to
the word “comprehensive” in the delegating statute:

6

Even if we were to pretend that § 20901
amounted to a directive telling the Attorney General to establish a “comprehensive national system” for pre-Act offenders, the plurality reads too
much into the word “comprehensive.” Comprehensive coverage does not mean coverage to the
maximum extent feasible. “Comprehensive”
means “having the attribute of comprising or including much; of large content or scope,” “[i]nclusive of; embracing,” or “[c]ontaining much in
small compass; compendious.” So, for example,
a criminal justice system may be called “comprehensive” even though many crimes go unpursued.
Gundy, 139 S. Ct. at 2146 (Gorsuch, J., dissenting) (quoting 3
Oxford English Dictionary 632 (2d ed. 1989)).

14
Indeed, the Third Circuit’s interpretation of
“comprehensive” is belied by the numerous exemptions to coverage built into the ACA. The coverage
mandated by § 300gg-13(a) applies only sometimes to
employers with fewer than 50 employees7 and not at
all to the numerous “grandfathered” plans already in
existence when the ACA was adopted in 2010. Given
these broad exemptions, Congress could not possibly
have intended the word “comprehensive” to mean that
every employer must be required to provide coverage
for the “additional preventive care” to be listed in
HRSA’s guidelines. Nor can the appeals court plausibly argue that Congress intended the exemptions expressly granted by the ACA to be the only permissible
exemptions. See Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal, 546 U.S. 418, 434 (2006) (rejecting federal government’s claim that statutory exemption within Controlled Substances Act for sacramental use of peyote indicated that Congress barred
recognition of other religious exemptions from the
prohibition against use of Schedule I substances).
Finally, the Third Circuit failed to come to
grips with an underlying inconsistency in its statutory interpretation. It held that the religious exemptions created by the Final Rule violated the ACA because the ACA does not permit HHS to establish exemptions. Pet. App. 41a. Yet the court simultaneously endorsed HHS’s earlier determinations that the
Contraceptive Mandate should include a more limited
Employers with fewer than 50 employers are under no obligation to provide health insurance and so need not comply with the
mandate. See 26 U.S.C. § 4980H.

7

15
religious exemption. Id. at 40a n.26. If the court correctly determined that the ACA delegated to HHS the
discretionary authority to create religious exemptions
in 2011-2015, then it must also be true that HHS possessed that same discretion in 2018.
B. By Vesting “All Legislative Powers” in
Congress, the Constitution Ensures
that the Same Entity that Imposes a
Constraint May also Relax It, but a Bar
on Administrative Relief Would Defeat
that Key Protection
To the Founders, an “excess of law-making”
was one of “the diseases to which governments are
most liable” and one of the principal reasons why Article I created so many hoops through which government officials must jump in order to create new laws.
The Federalist No. 62, p. 378 (C. Rossiter ed. 1961) (J.
Madison). They “believed the new federal government’s most dangerous power was the power to enact
laws restricting the people’s liberty.” Gundy, 139 S.
Ct. at 2134 (Gorsuch, J. dissenting) (citing The Federalist No. 48, at 309-312 (J. Madison)). When (as here)
an administrative agency’s constitutional authority to
exercise the unbridled powers delegated to it by Congress is in serious question, the courts should not hesitate to uphold that agency’s efforts to amend existing
regulations for the purpose of cutting back on “an excess of lawmaking” and thereby reducing “restricti[ons on] the people’s liberty.”
An important feature of the Constitution’s
vesting of “[a]ll legislative Powers” in Congress is an

16
assurance that a single body determines the extent to
which the law will restrict the people’s liberty—
thereby assuring that any constraints were actually
intended by that body. The decisions below undermine that assurance. The Third Circuit held that
Congress, when it adopted the ACA, properly delegated to HHS/HRSA full authority to determine what
“additional preventive care” is to be included within
42 U.S.C. § 300gg-13(a)’s mandated coverage. Yet,
the appeals court also held that the ACA did not delegate to HHS/HRSA authority to determine which
employers are required to provide the additional care
and which are to be exempted.
As a result, no single body ever endorsed the
constraints on liberty that the Third Circuit’s decision
below produce. Congress did not mandate the Contraceptive Mandate. The version of the mandate endorsed by HHS included an exemption for religious
objectors. Yet the Third Circuit’s decision imposes a
constraint on liberty—a Contraceptive Mandate that
does not include HHS’s religious exemption—that is
broader than one mandated by either of the political
branches. By so holding, the Third Circuit ignored a
key feature of the Constitution’s limitations on the exercise of the “federal government’s most dangerous
power.” Gundy, 139 S. Ct. at 2134 (Gorsuch, J. dissenting).
The circuit court’s interpretation of the ACA—
limiting federal agencies’ authority to provide relief
from their own rules—is in derogation of the Constitution’s vesting of all legislative powers in Congress.

17
The Constitution vests all legislative powers in Congress and thereby protects Americans from overly severe laws by ensuring that the same body that imposes constraints can also relax them. It is bad
enough that Congress in the ACA has divested itself
of that power by giving it to HHS, but it would be all
the worse to interpret the ACA to enable that agency
to impose constraints while barring it from expanding
relief from them. Not only would such an interpretation deprive Americans of their basic constitutional
freedom to be bound only by laws made by their
elected legislative body, but it also would subject them
to the severity of an ersatz legislature comprised of
agencies that can only act harshly, not with mercy.
Put simply, the Constitution subjects Americans to congressional authority both to constrain and
to liberate from constraint. Accordingly, when a statute is interpreted to enable federal agencies to constrain without any ability to offer relief, that interpretation subjects Americans to a gross caricature of legislative power, in which it is exercised by unelected
bureaucrats and consists only of constraint—never
generosity or tolerance.
So, even if Congress could divest itself of the
powers that the Constitution vests in it (which it may
not), Congress cannot permit an agency to invent its
own one-way ratchet—with a power merely to be hard
and without any room to back off and go more softly.
Accordingly, it is in derogation of the Constitution’s
vesting of legislative power in Congress to bar federal
agencies like HHS from offering relief from their own
prior rules.

18
C. When Agencies Undertake Lawmaking
Functions that Were Vested in Congress, Rules that Reduce the Scope of
Regulatory Reach Raise Fewer SelfGovernance Concerns
An interpretation of the ACA that bars HHS
from offering relief from its own rules deprives Americans of a key benefit of vesting legislative powers exclusively in Congress.
The ACA and the “additional preventive care”
mandated by the HRSA guidelines (including the
Contraceptive Mandate) impose significant burdens
on private citizens. They require employers who wish
to offer group health insurance to their employees to
pay premiums for a broad array of health services
that they might not otherwise wish to include in an
employee-benefits package. They require employers
with 50 or more employees who do not wish to offer
group health insurance to pay substantial fees to the
government.
Most significantly for purposes of this case, until 2017 the Contraceptive Mandate required employers, despite their religious objections, to participate in
procedures that (in the employers’ sincere belief) facilitated the provision of coverage for contraceptives
to which they had religious objections. See Zubik, 136
S. Ct. 1557. The Final Rule eliminated that burden
by broadening the religious exemption from the Contraceptive Mandate.

19
The Final Rule self-evidently reduced the burdens previously imposed on employers by federal administrators exercising legislative authority delegated to them by 42 U.S.C. § 300gg-13(a)(4). As explained above, Article I, § 1 of the Constitution prohibits HHS from exercising legislative power under
that statute. But HHS should not be faulted for taking steps designed to correct (at least partially) its
previous error. By broadening the religious exemption to the Contraceptive Mandate, HHS is reducing
an abridgement of personal liberty that it lacked authority to impose in the first place.
Under the Third Circuit’s holding, HHS possesses unchecked discretion to specify “additional preventive care” for which employers are required to provide coverage. Yet (according to the Third Circuit)
having once exercised its discretion to restrict the people’s liberty by adopting the Contraceptive Mandate,
HHS now lacks discretion to broaden the exemption
for employers with sincerely held religious objections
to the mandate. No principle of administrative or constitutional law—and nothing in the text of the ACA—
requires that unjust result. The decision below
should be reversed.

20
II.

INTERPRETING THE ACA TO LIMIT AGENCIES’
AUTHORITY TO EXPAND RELIEF FROM THE
CONTRACEPTIVE MANDATE UNDERMINES THE
CONSTITUTION’S AND RFRA’S PROTECTIONS
FOR RELIGIOUS AMERICANS
A. The Constitution Secures the Religious
Liberty of Americans Both Through
the First Amendment and by Vesting
“All Legislative Powers” in Congress

The Court’s Free Exercise Clause case law
(post Smith) is premised on the assumption that the
people’s elected representatives will respectfully consider the views of religious minorities when adopting
generally applicable laws. That assumption is unwarranted when, as here, the legislature has delegated its
lawmaking function to administrative agencies. Because federal administrative agencies are less likely
than Congress to accommodate religious objectors,
NCLA urges the Court not to extend Smith by applying it to laws written by administrative agencies.
The Free Exercise Clause of the First Amendment states that “Congress shall make no law … prohibiting the free exercise [of religion].” Its protections
bar any law that “discriminates against some or all
religious beliefs or regulates or prohibits conduct because it is undertaken for religious reasons.” Church
of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508
U.S. 520, 532 (1993). But Employment Division v.
Smith held that “the right of free exercise does not relieve an individual of the obligation to comply with a
‘valid and neutral law of general applicability on the

21
ground that the law proscribes (or prescribes) conduct
that his religion prescribes (or proscribes).’” 494 U.S.
at 879 (quoting United States v. Lee, 455 U.S. 252, 263
n.3 (1982) (Stevens, J., concurring in the judgment)).
In support of its decision to “leave … to the political process” the decision whether to accommodate
religious objectors by creating exemptions from laws
of general applicability, Smith stated:
Values that are protected against government interference through enshrinement in the Bill of Rights are not thereby
banished from the political process. Just
as a society that believes in the negative
protection accorded to the press by the
First Amendment is likely to enact laws
that affirmatively foster the dissemination of the printed word, so also a society
that believes in the negative protection
accorded to religious belief can be expected to be solicitous of that value in its
legislation as well.
Id. at 890. But that justification is unpersuasive in
the context of delegated lawmaking authority (including the authority to create religious exemptions) exercised by federal agencies. For a variety of reasons,
government administrators are far less likely than
legislators to be “solicitous of [religious] value[s].”
In particular, a legislator (unlike an administrator) is directly answerable to voters and can be
voted out of office if too many citizens come to believe

22
that he is not responding to their concerns. Legislators are thus inclined to take steps to avoid antagonizing religious voters, by creating religious exemptions from a generally applicable law if they conclude
that the exemptions will not significantly undercut
the law’s effectiveness. Administrators, whose actions are largely obscured from public view, do not
have to stand for re-election and thus lack similar incentives. As one administrative law expert has noted,
“most Americans have no hope of even identifying
most administrative lawmakers, let alone meeting or
speaking with them.” Philip Hamburger, Exclusion
and Equality: How Exclusion from the Political Process Renders Religious Liberty Unequal, 90 Notre
Dame L. Rev. 1919, 1939 (2015).
The ability of administrators to engage in “expert,” “rational” decision-making free from the political pressures to which legislators are routinely subjected is often touted by defenders of the administrative state as one of the principal reasons for delegating legislative power away from the people’s elected
representatives. Legislation creating an administrative agency generally identifies a narrow range of
goals on which the agency is directed to focus; accommodating the interests of religious minorities who
might be burdened by the agency’s rules is virtually
never identified as one of those goals. Personnel are
selected based on their expertise in fields related to
the agency’s goals, not for their sensitivity to religious
concerns. So (not surprisingly) administrators only
rarely consider the need for religious accommodations
while pursuing their agency’s mission.

23
Indeed, in extolling the Contraceptive Mandate
as originally adopted by HHS/HRSA and striking
down later efforts to expand exemptions from the
mandate, the Third Circuit stressed the “expert” nature of the administrative decision-making process.
See, e.g., Pet. App. 9a (noting that HRSA commissioned an “expert panel” from the Institute of Medicine to recommend a list of services to be covered under § 300gg-13(a)(4)). Respondents similarly emphasize the rational, scientific underpinnings of the Contraceptive Mandate as initially issued:
The Institute [of Medicine] convened a
committee of specialists in women’s
health, disease prevention, adolescent
health and evidence-based guidelines. …
That committee’s report proposed eight
evidence-based health services to be covered, including [all FDA]-approved contraceptive methods.
Opp. Br., No. 19-454, at 1-2.8 Absent from the administrative record is any indication that those to whom
lawmaking authority was delegated included anyone
with expertise in religion or that they were tasked
with ensuring reasonable accommodations for religious objectors.

Respondents emphasize the Institute’s scientific expertise,
noting that it is “a private, nonprofit institution providing objective advice on matters of science, health, and technology.” Id. at
1 n.1.

8

24
In sum, Smith’s rationale for exempting laws of
general application from Free Exercise Clause restraints is inapplicable when the laws in question are
adopted not by legislatures but by administrative
agencies.
Moreover, the interests of religious Americans
are protected not only by the Free Exercise Clause but
also by Article I’s vesting of “[a]ll legislative Powers”
in Congress and by barring Congress from divesting
itself of those same powers. Article I ensures that legislation constraining the rights of the people will not
be adopted lightly and that religious Americans will
have an opportunity to be heard by their elected representatives before any such constraints are enacted.
By delegating its legislative powers to HHS/HRSA
(especially when, as here, the delegation was unaccompanied by any “intelligible principle” to guide
HHS in the exercise of those powers), Congress acted
in derogation of the freedom of Americans to protect
their religious interests in Congress.
B. Congress Adopted RFRA in Part to
Counteract the Tendency of Unelected
Courts and Administrative Agencies to
Devalue Free-Exercise Interests
Congress responded to Employment Division
v. Smith by adopting RFRA in 1993. Congress rejected the distinction that Smith drew between laws
intended to interfere with religious exercise and laws
that are “neutral” toward religion.
42 U.S.C.
§ 2000bb(a)(2). RFRA states that “Government shall

25
not substantially burden a person’s exercise of religion even if the burden results from a rule of general
applicability,” 42 U.S.C. § 2000bb-1(a), and that any
law imposing such a burden should be scrutinized under a “compelling governmental interest” test. 42
U.S.C. § 2000bb-1(b). RFRA thereby implicitly called
into question Smith’s conclusion that “leaving accommodation to the political process” provided sufficient
protection to religious objectors.
RFRA demonstrates Congress’s doubts about
its own ability to craft legislation that will adequately
accommodate religious objectors. For all the reasons
explained above, Congress had even greater reason to
doubt that federal and state administrators could perform that task absent explicit legislative guidance.
The Third Circuit largely discounted RFRA’s
relevance to this case, limiting its application to cases
in which religious objectors can “prove” to the court’s
satisfaction that “the government [has] imposed a
substantial burden on religious exercise.” Pet. App.
44a. But that approach ignores agencies’ independent
statutory obligation to ensure that regulations they
adopt do not “substantially burden a person’s exercise
of religion.” 42 U.S.C. § 2000bb-1(a).
As explained above, federal agencies are by nature predisposed to give little thought to whether
their scientism and rationalist lawmaking imposes
substantial burdens on the exercise of religion. Hobby
Lobby determined that HHS’s earlier versions of the
Contraceptive Mandate imposed such burdens and

26
that HHS failed to demonstrate that its policy satisfied RFRA’s “exceptionally demanding” least-restrictive-means standard. Hobby Lobby, 573 U.S. at 728732.
The Final Rule responded to Hobby Lobby and
Zubik by expanding the mandate’s religious exemption to ensure that HHS’s legislation does not “substantially burden a person’s exercise of religion.” This
case involves an unusual instance in which a federal
agency is exercising its discretion to undo the consequences of its earlier administrative discrimination
against religious Americans. RFRA authorizes the
exercise of such discretion, even if a reviewing court
later determines that a narrower accommodation
would also have satisfied the minimum requirements
of federal law.
Nor is the Final Rule subject to challenge based
on (unsubstantiated) claims that it will deprive some
women of no-cost access to every FDA-approved contraceptive, provision of which (the Third Circuit asserted) serves a compelling government interest.
HHS has a far less restrictive means available to it of
satisfying that interest: it can bear the minimal costs
of supplying contraceptives rather than implicating
religious objectors in the supply chain. As Hobby
Lobby explained:
[B]oth RFRA and its sister statute
RLUIPA, may in some circumstances require the Government to expend additional funds to accommodate citizens’ religious beliefs. Cf. [42 U.S.C.] § 2000cc-

27
3(c) (RLUIPA: “[T]his chapter may require a government to incur expenses in
its own operations to avoid imposing a
substantial burden on religious exercise.”). HHS’s views that RFRA can
never require Government to spend even
a small amount reflects a judgment
about the importance of religious liberty
that was not shared by the Congress that
enacted that law.
Hobby Lobby, 573 U.S. at 730.

CONCLUSION
The judgment of the Third Circuit should be
reversed.
Respectfully submitted,
Richard A. Samp
Counsel of Record
Mark S. Chenoweth
John J. Vecchione
NEW CIVIL LIBERTIES ALLIANCE
1225 19th St. NW Suite 450
Washington, DC 20036
202-869-5210
rich.samp@ncla.onmicrosoft.com
March 9, 2020

Counsel for Amicus Curiae

